<html>
<title> - NOMINATIONS FOR DR. GALE A. BUCHANAN, MARC L. KESSELMAN, BOYDE K. RUTHERFORD, AND LINDA A. STRACHAN</title>
<body><pre>[Senate Hearing 109-713]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-713
 
   NOMINATIONS FOR DR. GALE A. BUCHANAN, MARC L. KESSELMAN, BOYDE K. 
                   RUTHERFORD, AND LINDA A. STRACHAN

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                               __________

                             MARCH 14, 2006

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
30-236                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

              Vernie Hubert, Majority Deputy Chief Counsel

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nominations for Dr. Gale A. Buchanan, Marc L. Kesselman, Boyde K. 
  Rutherford, and Linda Strachan.................................     1

                              ----------                              

                         Tuesday March 14, 2006
                    STATEMENTS PRESENTED BY SENATORS

Chambliss, Hon. Saxby, a U.S. Senator from Georgia, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............     1
Harkin, Hon. Tom, a U.S. Senator from Iowa, Ranking Member, 
  Committee on Agriculture, Nutrition, and Forestry..............    10
                              ----------                              

                               WITNESSES

Buchanan, Gale A. Dr., Adel, Georgia, Nominated to be Under 
  Secretary for Research, Education, and Economics...............     2
Kesselman, Marc L., Bethesda, Maryland, Nominated to be General 
  Counsel of the Department of Agriculture.......................     4
Rutherford, Boyd K., Columbia, Maryland, Nominated to be an 
  Assistant Secretary of Agriculture.............................     6
Strachan, Linda A., Nominated to be an Assistant Secretary of 
  Agriculture....................................................     8
                              ----------                              

                                APPENDIX

Prepared Statements:
    Harkin, Hon. Tom.............................................    22
    Buchanan, Gale A. Dr.........................................    24
    Kesselman, Marc L............................................    30
    Rutherford, Boyd K...........................................    32
    Strachan, Linda A............................................    37
Document(s) Submitted for the Record:
    Talent, Hon. Jim.............................................    40
    Biograpical information of Dr. Gale A. Buchanan..............    43
    Biograpical information of Marc L. Kesselman.................   154
    Biograpical information of Boyd K. Rutherford................   175
    Biograpical information of Linda A. Strachan.................   191
Questions and Answers Submitted for the Record:
    Chambliss, Hon. Saxby........................................   216
    Harkin, Hon. Tom.............................................   218
    Nelson, Hon. Ben.............................................   226
    Talent, Hon. Jim.............................................   235



   NOMINATIONS FOR DR. GALE A. BUCHANAN, MARC L. KESSELMAN, BOYDE K. 
                     RUTHERFORD, AND LINDA STRACHAN

                              ----------                              -


                        Tuesday, March 14, 2006

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room SR-332, Russell Senate Office Building, Hon. Saxby 
Chambliss, chairman of the committee, presiding.
    Present or submitting a statement: Senators Chambliss, 
Lugar, and Harkin.

STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM GEORGIA, 
  CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    The Chairman. Good morning. We are here today to conduct a 
hearing on four nominations to important posts at the U.S. 
Department of Agriculture. The nominees are: Dr. Gale A. 
Buchanan, to be Under Secretary for Research, Education, and 
Economics; Marc L. Kesselman, to be General Counsel; Boyd K. 
Rutherford, to be Assistant Secretary for Administration; and 
Linda Strachan, to be Assistant Secretary for Congressional 
Relations.
    I have had the opportunity to meet with all four nominees 
and review their backgrounds. We all appreciate their 
willingness to come forward and to engage in public service.
    While we welcome all the nominees, I do want to make a 
special comment about my good friend and my fellow Georgian, 
Dr. Gale Buchanan. Dr. Buchanan has been a dedicated public 
servant for his entire life. He has been the dean and director 
of the University of Georgia College of Agriculture and 
Environmental Sciences, the interim director of Georgia 
Agricultural Experiment Stations, and the dean and director of 
Alabama Agricultural Experiment Stations, and a professor at 
the University of Georgia and Auburn. He spent some time at 
Auburn, then decided to come to Georgia to get an education, 
Dick.
    [Laughter.]
    The Chairman. We are glad he made that step in the right 
direction. He is also a retired colonel in the Army National 
Guard. Dr. Buchanan has a distinguished record of service to 
our country, and we are very pleased that he has agreed to come 
to Washington and continue that service at the Federal level. 
He has been a dear friend of mine for many years and Gale, we 
welcome you to this committee today, as we do to all of you, 
and we welcome you to public service in Washington.
    Once again, I do want to welcome all the nominees. Thank 
you for appearing before the committee today.
    For the information of Senators and staff, I would ask that 
any questions of the nominees for the record be submitted by 5 
p.m. today in order to expedite the confirmation process.
    Senator Harkin is going to be here shortly, and when he 
does arrive, we will give him the opportunity to make any 
opening statement.
    At this time we are going to take statements from the 
individual nominees, but before we do that, I will ask all four 
of you if you will please stand up and raise your right hand's. 
Do you swear that the testimony you are about to present is the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Mr. Buchanan. I do.
    Mr. Kesselman. I do.
    Mr. Rutherford. I do.
    Ms. Strachan. I do.
    The Chairman. To each of you--and I will ask you to 
affirmatively respond to this--do you agree that, if confirmed, 
you will appear before any duly constituted committee of 
Congress if so asked?
    Mr. Buchanan. I will.
    Mr. Kesselman. I will.
    Mr. Rutherford. Yes.
    Ms. Strachan. I will.
    The Chairman. Let the record reflect that all responded 
affirmatively. Thank you very much.
    Dr. Buchanan, we will start with you, and, Mr. Kesselman, 
Mr. Rutherford, Ms. Strachan, we will come this way. So, Dr. 
Buchanan, we welcome any comments you have this morning, and 
any introduction of your family members here.

    STATEMENT OF GALE A. BUCHANAN, OF GEORGIA, TO BE UNDER 
     SECRETARY OF AGRICULTURE FOR RESEARCH, EDUCATION, AND 
           ECONOMICS, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Buchanan. Thank you, Mr. Chairman and distinguished 
members of the committee. I want to thank you for the 
opportunity of appearing before you today, and I would like to 
have my full report included for the record, but I want to 
speak from an abbreviated form.
    The Chairman. Without objection.
    Mr. Buchanan. I am honored and humbled to be nominated by 
our President to be considered for the position of Under 
Secretary of Agriculture for Research, Education, and Economics 
in the U.S. Department of Agriculture.
    With me today is Carol, my wife and greatest supporter. Not 
with me are our children--Judy, Kim, and Brad--and grandson 
Stephen.
    I have been associated with agriculture my entire life. I 
was born and raised on a general farm in Madison County, 
Florida, and growing up on a family farm, I learned early in 
life the fundamentals of farming, acceptance of responsibility, 
and the nature of rural life.
    After graduation from high school, I enrolled at the 
University of Florida where I received a degree in agronomy. 
After a tour with the U.S. Army 2nd Infantry Division, I 
returned to the University of Florida where I completed 
requirements for a degree in weed science. Rounding out my 
education, I enrolled at Iowa State University. In addition to 
completing the requirements for the Ph.D. degree in plant 
physiology, I learned something about Midwest agriculture. I 
have also completed postdoctoral research in biochemistry at 
the University of Georgia and in weed ecology/biology at the 
Weed Research Organization in Oxford, England.
    My first job was at Auburn University where I served as a 
researcher and teacher in weed science and as an administrator 
of the Alabama Agricultural Experiment Station.
    In 1986, I relocated to the University of Georgia where I 
served as resident director of the Coastal Plain Experiment 
Station in Tifton and later as dean and director of the College 
of Agriculture and Environmental Sciences in Athens. I retired 
from the university in April of 2005.
    I have also been involved in other activities that have 
broadened my experience in agriculture. My brothers and I have 
been engaged in a general farming operation growing corn and 
soybeans.
    I have been active in several scientific societies and 
professional organizations both as a participant and in various 
leadership roles. This includes leadership roles in the 
National Association of State Universities and Land Grant 
Colleges Board on Agriculture Assembly. I have served as 
president of the American Peanut Research and Education 
Society, the Southern Weed Science Society, and the Council for 
Agricultural Science and Technology.
    If confirmed, I look forward to continuing to serve because 
I believe in American agriculture. It is among our most 
important endeavors and enables the success of our country and, 
indeed, our civilization. Successful agriculture makes all 
other of man's endeavors possible. I also might add that 
agriculture is an important part of our economy. A major 
contributor to the success of agriculture is information, 
knowledge, and technology gained through research and education 
programs. Few would argue that one of the prime factors in 
agriculture's success has been the effectiveness of these 
programs that tie local, State, and the Federal Governments, 
along with our universities, close together. Our system has 
been so successful through these joint efforts that these 
programs are the envy of much of the world.
    I am confident that the continued strength and success in 
the future of American agriculture is contingent upon strong 
and effective research and education programs. Consequently, I 
believe these programs must be supported and carefully nurtured 
to ensure their future success. Agriculture will continue to 
provide food and fiber but, in addition, will be called to play 
a major role in addressing the Nation's energy needs in the 
future. Clearly, this is a challenge, but a fantastic 
opportunity. Research and education programs will make the 
difference in this success.
    In the U.S. Department of Agriculture, we have strong in-
house capabilities through ARS, ERS, and NASS, all supported by 
the National Agriculture Library. Another of our great 
strengths in agriculture is the unique relationship that brings 
together the Federal Government and our States through CSREES. 
This program ties the Department closely to the Nation's land 
grant universities, including our 1862, our 1890, and our 1994 
institutions as well as other universities that have 
agricultural programs.
    The position of Under Secretary carries an important 
responsibility in working with each of these institutions as 
well as with a multitude of other groups in assuring the 
success of research and education programs.
    If confirmed, I would look forward to being on the point in 
working with you, the Department, the Nation's land grant and 
other agricultural universities, American industry, and others 
in assuring the success of research and education programs. I 
pledge to you that, if confirmed, I will work as hard and as 
effectively as I can to support American agriculture through 
these programs in the U.S. Department of Agriculture.
    Thank you for your consideration, and I would like to 
respond to your questions and hear your comments at the proper 
time. Thank you, sir.
    [The prepared statement of Dr. Buchanan can be found in the 
appendix on page 24.]
    [The biographical information of Dr. Buchanan can be found 
in the appendix on page 43.]
    The Chairman. Thank you.
    Mr. Kesselman, again, we are pleased to have you here, and 
I would state for the record that we have a statement from 
Senator Lamar Alexander of Tennessee by way of introduction of 
Mr. Kesselman and in support of Mr. Kesselman's nomination, and 
it will be entered in the record.
    The Chairman. Mr. Kesselman, we are happy to hear from you.

  STATEMENT OF MARC L. KESSELMAN, OF MARYLAND, TO BE GENERAL 
            COUNSEL, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Kesselman. Thank you, Mr. Chairman, Senator Harkin, and 
other distinguished members of this committee. Thank you for 
providing me with the opportunity to appear before you today. I 
am deeply honored to be here as the President's nominee for 
General Counsel of the United States Department of Agriculture.
    I would like to express my gratitude to President Bush for 
nominating me for this position. If confirmed, it would be a 
privilege to serve under the leadership of Secretary Johanns 
and Deputy Secretary Conner. I also want to thank Senator 
Alexander for his support.
    With me here today is my wife, Risa Cherry Kesselman, along 
with our daughter, Ileana. Our 6-month-old son, Adam, is at 
home today. I want to thank Risa for her constant support and 
encouragement. She is a talented lawyer and a dedicated public 
servant in her own right.
    My parents, Sally and Fred Kesselman of Memphis, Tennessee, 
are also here. I am forever indebted to them for sacrificing so 
much to give me the opportunities that led me here today. Also 
joining me today are several friends and colleagues, and 
several more people listening over the Web, including my 
sister, who could not be here because she is abroad, and Risa's 
parents and my grandfather, who couldn't make it for health 
reasons.
    Mr. Chairman, I appreciate the courtesies that this 
committee has extended in advance of the hearing. If confirmed 
I look forward to the opportunity to work with all of you and 
your staff. I am committed to developing a close and 
cooperative working relationship with this committee and with 
the Congress. In all of our dealings, I would start with one 
very simple premise: We all share the goal of a Department of 
Agriculture that works for America's farmers, ranchers, 
producers, consumers, and rural communities.
    To achieve this goal, my primary role would be to provide 
the best possible legal advice and counsel to the Department's 
leadership team on the many challenging issues facing USDA. 
Whether the issue of a particular day involves our Nation's 192 
million acres of national forest lands, the food assistance 
programs that serve one in five Americans every year, 
protecting plant and animal health, or fighting to open export 
markets for America's agricultural products, I will work 
tirelessly and to the best of my ability to faithfully 
discharge the duties of my office.
    I am excited by the opportunity to contribute to the 
important mission of the Department and, if confirmed, stand 
ready to tackle the legal challenges confronting the 
Department. I have worked as a lawyer in the Federal Government 
and in the private sector. I began my legal career as a law 
clerk for Judge Julia Gibbons, who was then Chief Judge of the 
United States District Court for the Western District of 
Tennessee. She was a key influence in shaping my legal career 
and instilled in me a great respect for the law. I then spent 
several years as a litigator with a private law firm and in the 
Civil Division of the Department of Justice. In these jobs, I 
learned the nuts and bolts of trying cases. I left private 
practice for The Department of Justice for the opportunity to 
represent the United States in constitutional matters.
    I currently serve as the Deputy General Counsel of the 
Office of Management and Budget (OMB) where I provide legal 
advice and analysis on a wide variety of statutory, 
legislative, regulatory, administrative, and policy issues. In 
this position, I have worked with USDA attorneys, and I know 
firsthand that the Office of General Counsel has an 
outstanding, highly experienced career legal staff. If 
confirmed, I look forward to working with them and learning 
from them.
    I also look forward to contributing to the effective, 
citizen-centered, results-oriented management of the Department 
and its programs. It is, however, not sufficient that the 
Department be run efficiently. It must also ensure equal 
opportunity for all individuals. I share the vision expressed 
by Secretary Johanns in his Civil Rights Policy Statement when 
he said, ``We must strive for a workplace that respects 
differences and embraces diversity. Our programs and services 
must be accessible and delivered to all of our customers fairly 
and with dignity. There can be no exceptions or excuses.'' If 
confirmed, I will work to implement this vision.
    In closing, I would like to thank the committee for holding 
this hearing and for considering my nomination to be the 
Department's next General Counsel. It would be an honor and a 
privilege for me to serve our President and the American people 
in this position. Should you see fit to recommend my 
confirmation to the Senate, and should I be confirmed, I will 
devote all of my energy and effort to doing the kind of job 
that merits your confidence.
    I would be very pleased to answer any questions you have. 
Thank you again, Mr. Chairman.
    [The prepared statement of Mr. Kesselman can be found in 
the appendix on page 30.]
    [The biographical information of Mr. Kesselman can be found 
in the appedix on page 154.]
    The Chairman. Thank you very much, Mr. Kesselman.
    Mr. Rutherford, as we allow you to make a statement, I 
would note for the record and will introduce into the record 
without objection two letters of recommendation with respect to 
your nomination--one from Mr. David R. Craig, County Executive 
of Harford County, Bel Air, Maryland; also a letter from Mr. 
Robert S. Downs of the law firm of Miles and Stockbridge in 
support of your nomination. And these will be so entered.
    [The letters of recommendation were not submitted for the 
record.]
    The Chairman. Mr. Rutherford, welcome.

 STATEMENT OF BOYD K. RUTHERFORD, OF MARYLAND, TO BE ASSISTANT 
 SECRETARY FOR DEPARTMENTAL ADMINISTRATION, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. Rutherford. Thank you, and good morning, Mr. Chairman 
and Senator Lugar. I am honored to sit here before you today. I 
am humbled by the President's nomination and the confidence he 
and Secretary Johanns have in my ability to serve as Assistant 
Secretary for Administration.
    I am joined today by my family: my wife, Monica; my 
daughter, Lauren; my mother, Dorothy Rutherford; and other 
family and friends. Our youngest daughter, Kristen, could not 
attend this morning as there is testing in Howard County, 
Maryland, today. Also, our adult, Marshall, who lives in 
Southern California, is unable to join us because of work 
obligations.
    I appreciate this opportunity to highlight my 
administrative experience and qualifications for the position 
that we are here to discuss today.
    On January 16, 2003, I was nominated by Governor Robert L. 
Ehrlich and later confirmed by the Maryland State Senate to the 
position of Secretary of the Maryland Department of General 
Services, or DGS. At DGS, we are responsible for security, 
maintenance, construction, and engineering services of State 
facilities, including the historic State House and legislative 
office buildings in Annapolis. We are also the primary 
procurement agency for the State, procuring over $1 billion in 
contracts per year.
    Our mission at DGS is to serve Maryland and its citizens by 
ensuring State agencies are able to achieve their respective 
missions in a safe, efficient, and effective manner. 
Accordingly, we focus on customer service. Upon my arrival to 
the department, I found that many of our customer concerns were 
going unaddressed; in response, we initiated a concept that I 
saw implemented during my tenure at the United States General 
Services Administration that called for a single point of 
contact. In the past, customer agencies would voice their 
concerns with regard to facilities or other items to whomever 
they came in contact with and often outside of the area of 
responsibility. To correct this problem, we vested 
responsibility for customer service within a newly created 
Office of External Affairs, within the Office of the Secretary. 
Now all divisional leaders know that customer concerns that are 
outside of their division or cross divisions are to be referred 
to External Affairs for follow-up and resolution.
    My focus on customer service started in my early career as 
a sales representative for the old Control Data Corporation. I 
found success as a salesman by focusing on servicing existing 
customers. By being personally responsive to the customer 
needs, it engendered confidence on the part of our customers 
and loyalty in the most competitive environments.
    In addition to emphasizing customer service, the department 
has been able to help Governor Ehrlich turn around the State's 
budget challenges through improved efficiencies and more 
effective resource utilization. With the support of an 
excellent staff, DGS has been able to save the State over $78 
million in the 3 years that I have served as Secretary. Now, 
$78 million may seem small when compared to Federal budgets, 
but it does represent at least 1 year of our general fund 
budget in the department.
    Before concluding, I would like to express my support and 
appreciation for agriculture and its impact on our lives. Being 
a city boy, as I was born and reared right here in Washington, 
D.C., one might ask how did I get considered for this 
opportunity. I asked that question myself.
    First, the position of Assistant Secretary for Departmental 
Administration is a management position. The chief function is 
to ensure that the Secretary and the Department in general have 
the tools and support necessary to carry out the important 
mission of USDA. Unless USDA is able to operate efficiently and 
effectively, it cannot provide the essential services needed to 
ensure that American consumers continue to enjoy some of the 
lowest costs and safest foods in the world.
    Second, during my tenure in State government, I have grown 
to understand the significant impact of agriculture on Maryland 
as well as the national economy. Maryland is often looked at as 
an urban/suburban small State. However, many people are 
surprised by the impact of agriculture on the State's economy, 
ranging from the fisheries on the Chesapeake Bay, the poultry 
industry on the Eastern Shore, the horse breeding and training 
facilities in the North/Central portions of the State, and all 
the industries that support them contribute billions of dollars 
to the State's economy.
    Last, the area of bioenergy is a significant but small 
overlap with some of the work I have been doing over the past 
year at General Services. The Maryland Department of General 
Services has been in the lead of supporting legislation 
currently before the Maryland Legislature to require the use of 
biodiesel in the State's diesel fleet. In addition, our 
department is in the process of installing the first State-
operated ethanol filling station at the Baltimore State Office 
Complex. Accordingly, I look forward to continuing this effort 
as well as supporting the mission of USDA in expanding the use 
of bio-based products.
    In conclusion, if confirmed as Assistant Secretary of 
Administration, I will make sure that Departmental 
Administration is customer service oriented with a focus on 
providing the services needed to allow the USDA to carry out 
its mission.
    I appreciate this opportunity to be before you today, and I 
await your questions. Thank you.
    [The prepared statement of Mr. Rutherford can be found in 
the appendix on page 32.]
    [The biographical information of Mr. Rutherford can be 
found in the appendix on page 175.]
    The Chairman. Thank you.
    Ms. Strachan, we look forward to hearing your comments.

STATEMENT OF LINDA A. STRACHAN, OF THE DISTRICT OF COLUMBIA, TO 
   BE ASSISTANT SECRETARY FOR CONGRESSIONAL RELATIONS, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Ms. Strachan. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Lugar, thank you for considering my 
nomination as Assistant Secretary of Agriculture for 
Congressional Relations. I am honored to appear before you 
today, and thank you for the opportunity to introduce my 
family.
    Behind me is my mother, Queet Strachan, and she is from 
South Carolina; my brother, Steve, and his wife, Martie, and 
they are from Wilmington, Delaware; my Uncle Bruce--and I could 
go on. I have got two nieces, a godson, lots of aunts and 
uncles--this whole section. So thank you for giving me the 
opportunity to introduce them.
    I wish to thank President Bush for nominating me for this 
position and Secretary Johanns and Deputy Secretary Conner for 
their support of my appointment. I have tremendous respect for 
the Department of Agriculture and the community it represents. 
I recognize the importance of rural America and agriculture to 
our Nation. And, if confirmed, I look forward to having the 
opportunity to work with this committee to promote our common 
goals for U.S. agriculture.
    At a very early age, my brother and I came to Capitol Hill. 
We sat in the Senate Gallery and on the Senate floor speaking 
was Senator Everett Dirksen. I will never forget his voice, and 
I will never forget his presence. Little did I know that many 
years later I would end up working in the Majority Leader's 
office for Senator Baker, his son-in-law. I would like to 
express my gratitude and respect to Senator Baker for teaching 
me the ``ways of the Senate'' and for guiding me toward public 
service.
    Before coming to Washington, I was a 6th grade social 
studies teacher in Virginia Beach, Virginia. And as part of a 
lesson on the legislative process, my students and I drafted a 
proposed bill. We worked with our State legislators and 
actually got it introduced in the General Assembly in Virginia. 
We went to Richmond to lobby for its passage, and as luck would 
have it, we were successful in getting the bill passed and 
signed by the Governor that year. Because of our efforts, the 
Commonwealth of Virginia has an official State shell, and that 
is the oyster shell. After this experience, I left teaching and 
headed to Washington.
    Mr. Chairman, I have spent 14 years in Federal service 
working at the Department of State and the Environmental 
Protection Agency. During this time, I learned the importance 
of working closely and cooperatively with Congress, State and 
local officials, as well as a broad range of constituent groups 
on various policy initiatives.
    Most recently, I worked for an agribusiness company, 
Monsanto, which is headquartered, in St. Louis, Missouri. In 
this position, I spent a significant amount of time traveling 
throughout farm country. During my tenure, I gained tremendous 
respect and admiration for farmers who work to provide 
Americans with a safe and affordable food supply. I have had 
the pleasure of working with several members and staff on this 
committee and others on a variety of issues, including 
biotechnology acceptance and conservation programs.
    If confirmed by the Senate, I will apply the skills, 
knowledge, and experiences I have gained over the years to 
represent the views of the administration and the Department of 
Agriculture on matters before this committee. If confirmed, I 
pledge that I will make sure your views are accurately conveyed 
and understood at the Department. I will keep the lines of 
communication open and will strive to see that your concerns--
and those of your constituents--are answered in a timely 
manner.
    Mr. Chairman, thank you for giving me the opportunity to 
testify today. It is a great honor for me and for my family. 
Thank you for your consideration, and if you have any 
questions, I will be more than happy to answer them.
    [The prepared statement of Ms. Strachan can be found in the 
appendix on page 37.]
    [The biographical information of Ms. Strachan can be found 
in the appendix on page 191.]
    The Chairman. Thank you, and each of you, for your 
comments, and we are pleased to see all your family here. They 
are deservedly proud of you, and it says a lot that you have 
got so many folks here in support of you. So welcome to all of 
you.
    Mr. Rutherford, as I told you in my meeting with you 
previously, Governor Ehrlich is a very close personal friend. 
He and I were elected to Congress together, and knowing the 
great respect that he has for you, we are not going to worry 
about you not being able to drive a tractor down there.
    [Laughter.]
    The Chairman. We are going to let Dr. Buchanan drive that 
tractor.
    Mr. Rutherford. Thank you.
    The Chairman. We are just going to let you make the good 
policy. That is what that is all about.
    Before I begin the questioning, I will turn to my ranking 
member, my good friend Senator Harkin, for any comments he has 
to make.

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, RANKING 
   MEMBER, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    Senator Harkin. Well, thank you very much, Mr. Chairman. I 
welcome our four nominees to the committee today, obviously all 
well qualified to fill these positions.
    First of all, Mr. Chairman, I know that Dr. Buchanan has 
been a Georgian for about 20 years, but in reading his resume, 
I see that he traveled to Iowa State University to get his 
Ph.D., my alma mater. So I guess we can both claim him--OK?--as 
one of our own from Iowa State.
    [Laughter.]
    Senator Harkin. General Counsel office, again, the position 
must be filled by someone who appreciates the diversity of USDA 
programs. Farm programs, crop insurance, conservation, food 
stamps, school lunches--all those things have to be taken into 
account and require the best legal advice.
    We rely on the Assistant Secretary for Administration to 
help keep the Department running and to make the most effective 
and efficient use of the resources that we devote, Mr. 
Rutherford. And again, we here in Congress really rely upon 
having a good, conscientious person filling the position of 
Assistant Secretary for Congressional Affairs. I have known and 
worked with Linda Strachan for a number of years, with 
Monsanto, and, again, I could not ask for a better working 
relationship and keeping open lines of communication which are 
just vital to us here in Congress. And I guess I did not know 
that your tutor had been Senator Baker, but you had a great 
tutor in Senator Howard Baker. And so I just have every 
confidence that Linda Strachan will fill this position 
admirably and well and will excel in these responsibilities.
    So four good nominees, Mr. Chairman. I welcome them and 
look forward to supporting them and hope we can get them 
through as expeditiously as possible.
    [The prepared statement of Senator Harkin can be found in 
the appendix on page 22.]
    The Chairman. Great. Thank you very much.
    Dr. Buchanan, you know that one of my pet projects is 
agricultural research or research in general, whether it is 
agriculture, defense, science, health, whatever. I think it 
certainly portends for the future of this country.
    You have worked as an agricultural scientist and within the 
experiment station and university system for virtually your 
entire career, and we will take particular note that you did 
get your Ph.D. at Iowa State, and in spite of that, we know 
that you know an awful lot about agriculture.
    [Laughter.]
    The Chairman. Actually, those folks at Iowa State, Tom, are 
becoming even more and more important, and, you know, we have 
got a special issue that just came up in the last several days 
where the University of Georgia and Iowa State collaborated on 
our BSE issue. And Iowa State is such a great university, 
particularly from an agriculture perspective.
    As Under Secretary for Research, Education, and Economics, 
you will have the opportunity and responsibility to lead the 
entire U.S. agricultural research system. What issues or 
problems have you witnessed in your past positions that you 
would now like to address? What goals have you set for the 
research, education, and economics mission? What would you like 
to accomplish during your tenure in this position?
    Mr. Buchanan. Thank you, Senator Chambliss. That certainly 
is a good and far-reaching question and one that I have thought 
about. And I guess if I had to sum up what I would really like 
to accomplish, it is to do everything I can to strengthen the 
research and education aspects throughout agriculture. And, of 
course, clearly one of the first things you always look at is 
how do you fund agricultural research and education, but I look 
at more how we can find ways to work together among all various 
entities. Having been involved in the land grant university 
system and watched over the past several decades efforts to 
develop more collaborative relationships among universities, I 
think that is something that I want to try to do, that is to 
strengthen cooperative relationships among all universities, 
including The Agricultural Research Service, but even more 
important is to find ways to get more agricultural research 
throughout the existing universities. I know at the University 
of Georgia anytime you can get scientists in other parts of the 
university to work on agriculture-related problems, it is to 
our advantage.
    And so I think that if I had one single goal I want to do, 
it is to try to build more collaborative relationships among 
everybody that can contribute to the solving of problems in 
agriculture.
    Senator T4Harkin. Mr. Chairman, if you would excuse me, I 
have an FDA hearing on Ag Appropriations at this very time, and 
because of this BSE issue and FDA is here, I have got to go and 
attend to that.
    The Chairman. Sure.
    Senator Harkin. So I apologize, but I just wanted to be 
here, again, to welcome our nominees and say that on our side 
we hope that we can get them through as quickly as possible. 
They are all well qualified.
    The Chairman. Thank you. Tell those appropriators we are 
talking about ag research. We want more money.
    [Laughter.]
    Senator Harkin. I got my marching orders. Thanks.
    The Chairman. Thanks, Tom.
    Funding for agricultural research has not kept pace with 
the Federal investments in other areas of science and research. 
This is going to be one of your biggest challenges. Now, you 
somewhat alluded to that. Setting aside that challenge, what 
are the greatest scientific issues that you think are facing 
agricultural research in the United States?
    Mr. Buchanan. That is another good question, and, clearly, 
they are the kinds of things that I have spent a lot of time on 
during my last decade as dean and director of agriculture at 
the University of Georgia. Certainly the whole area of food 
safety is one that I think is critically important. Another one 
is the emerging issue of energy, and that is one that we are 
seeing more discussion about. But, clearly, that is an area 
that we need to be working on.
    I have personally been involved over the past few years in 
trying to stimulate more interest in looking at things that on 
the surface you do not think are necessarily related to energy. 
For example, the cost of nitrogen. I think we have got to 
develop more effective ways of growing our nitrogen rather than 
depending upon nitrogen from petroleum products. So these are 
the kinds of issues that I see as important.
    Another thing, too, is it seems like we have a never ending 
supply of new diseases and new problems. Just this past year or 
the last couple of years, we have seen the soybean rust come on 
like gangbusters. We still do not know what the potential for 
that disease will be.
    We have also seen tomato spotted wilt virus emerge as a 
real problem, and I can remember, if we go back just a couple 
of decades, you had never heard of it. But, also, we have other 
diseases like citrus canker and citrus greening, in other parts 
of the country. So keeping up with just the problems is a major 
challenge, but when you add all those together, I think we have 
a full portfolio of challenges for agricultural research in the 
future.
    The Chairman. Thank you. And for those of you who are not 
from the South ``nitagen'' is the same as ``nitrogen.''
    [Laughter.]
    The Chairman. Mr. Kesselman, could you please describe for 
the committee your qualifications to be General Counsel at 
USDA?
    Mr. Kesselman. Thank you, Mr. Chairman. I appreciate the 
opportunity to address my qualifications. Not only am I excited 
by the opportunity to serve at USDA, but I feel that I am 
ready.
    My background is in both the Government and private 
sectors. I have had the opportunity to litigate at the 
Department of Justice and to work at OMB. At OMB we have a 
chance to see issues across the Government--issues that will 
ultimately go to litigation, regulatory issues, and legal 
policy issues. I have also worked in the private sector where I 
have represented regulated parties, and so I understand the 
effects that Government regulations and actions and activities 
have on real people in the real world.
    I would also say from my experience working with USDA staff 
that I appreciate and understand what a great and experienced 
crew there is in the Office of the General Counsel. I would 
look forward to working with the career attorneys, drawing upon 
their expertise and using the skills that I have built at OMB, 
The Department of Justice, and in private practice.
    The Chairman. You mentioned that you have been at OMB and 
at Justice. What involvement have you had with agricultural 
issues in your career? And how familiar are you with the 
programs and the organization of USDA?
    Mr. Kesselman. Thank you, Senator. At OMB I have had an 
opportunity to work with agencies across the Federal 
Government, including USDA. One of the things that I do on a 
daily basis is provide advice to people who are involved in the 
rulemaking process. Some very big USDA rulemakings have come 
through during the last couple of years, especially on the 
animal health side with BSE regulations. There have also been 
issues involving the COOL Program, animal identification, and 
other issues be of significant importance to USDA. In some form 
or another, we see many of USDA's issues at OMB. I would come 
to USDA with a good idea of the types of challenges that face 
the Department, and I am anxious to participate in resolving 
those challenges because they affect every American's life.
    The Chairman. Mr. Kesselman, I do not know whether Senator 
Salazar will be here or not, but he very well may be, and I 
thought he might ask questions related to this. But in all 
fairness, we received a letter from Mr. Lupe Garcia of the 
Hispanic Farmers and Ranchers of America regarding to your 
nomination. He is not critical or objecting to your nomination, 
but he has asked that we seriously subject you to examination 
relative to some issues pending at USDA, and let me just cite 
this. I think you are familiar with this.
    He says, ``Inasmuch as there are numerous outstanding class 
action lawsuits and legal actions currently pending against 
USDA, the nomination of Mr. Kesselman warrants careful 
scrutiny. Mr. Kesselman should be subjected to a full hearing 
debate about his qualifications to be the next General Counsel. 
Mr. Kesselman should be closely questioned concerning his 
plans, if any, to deal with the numerous discrimination 
lawsuits against USDA that are costing taxpayers millions of 
dollars each year in legal fees and contributing to USDA's 
reputation as the last plantation. That discrimination of the 
sort that is both well documented and admitted should exist in 
2006 is appalling and is all the more reprehensible that such 
discrimination is perpetrated by a Federal Government agency 
funded by taxpayers who pay for the privilege of being victims 
of discrimination.''
    So I want to give you the opportunity to address that 
particular issue in response to the comments of Mr. Garcia.
    Mr. Kesselman. Thank you, Mr. Chairman. I appreciate the 
opportunity to address the race relations issues that have been 
the subject of litigation involving USDA. I am aware Hispanic 
farmers, African American farmers, and other classes have filed 
lawsuits.
    I think that any discussion of that issue has to begin with 
one very simple premise: discrimination on the basis of race, 
national origin, ethnicity, gender, or any of the other 
prohibited factors is wrong, both as a legal matter and as a 
matter of principle. I would come to the position with that 
fundamental belief.
    I understand that there is litigation pending in the D.C. 
Circuit in which Hispanic farmers have filed a class action 
lawsuit for discrimination in the administration of credit 
programs. The topic of the motion before the court is whether 
or not the class should be certified. The court recently 
resolved the issue as it applies to female farmers, but has not 
yet resolved the issue as it applies to Hispanic farmers. I 
think that decision will probably come down any time now, and 
certainly, if confirmed, it would be my responsibility to deal 
with that decision. In terms of a specific plan, I would work 
with you, Mr. Chairman, with Senator Salazar with the citizen 
who wrote this letter, and with any other stakeholders to make 
sure that people feel they are being treated fairly. Decisions 
about USDA's litigation posture must be made with the full 
facts in mind.
    The Chairman. Thank you for those comments. In my State we 
have a number of minority farmers who are outstanding farmers. 
Dr. Buchanan and I have had the opportunity to work with any 
number of them, and we want to make sure that USDA is once and 
for all rid of this tag that I think in a lot of instances is 
unfairly given to them. So we look forward to working with you 
as we move through this, and all the other complex and 
controversial issues that might be forthcoming.
    Mr. Rutherford, USDA has over 100,000 employees, 14,000 
offices and field locations, $128 billion in assets, and 
provides approximately $100 billion in loans, loan guarantees 
and insurance. Obviously, it is a major job to administer such 
a large organization. While you have overseen large entities in 
your career, USDA is one of the largest organizations in the 
world. How does your background prepare you for this kind of 
responsibility?
    Mr. Rutherford. Thank you for that question, and you are 
absolutely right, it is going to be a challenge. It is a large 
organization, but I believe my history, and particularly in 
Maryland, with the administration of the Department of General 
Services, which essentially serves as a back office or backbone 
for the entire State Government has prepared me for the 
challenge. We touch every agency, every department throughout 
the State. We house and provide the equipment and services for 
the several hundred thousand employees that work for the State, 
as well as provide security. While we are not directly 
responsible for their programs, we are the support agency for 
other State governmental functions.
    I would look at my role, if confirmed, in departmental 
administration, in a similar manner, as the support function 
for the mission of USDA. And as I said initially in my 
statement, we would need to make sure that we are operating in 
an effective and efficient manner to make sure that mission can 
be carried out.
    The Chairman. Thank you. For years USDA has faced 
information technology challenges, including the inability of 
agencies within the Department to share information with each 
other. Given your experience in State and Federal Government, 
are there strategies that USDA should pursue to better manage 
its information technology infrastructure?
    Mr. Rutherford. Well, first of all, I would need to explore 
what the challenges have been in the past and currently. Not 
being on board, I don't know exactly what their challenges are.
    However, what I found is that in most cases there's a 
communications challenge. There's also what can often happen--
and I'm not saying that this is going on at USDA--is that you 
can have proprietary or people having silos, and they don't 
want to share their information or work together. And one of 
the things I think I have been able to do is to bring different 
philosophies together. I'm trying to be nice in terms of 
sometimes you have strong personalities that can head different 
agencies and different departments, and it can be a challenge 
to bring them together. But once you recognize those and cut 
through the silos, I think you can address most of those 
challenges, and we will look forward to work on that area.
    The Chairman. This idea of spreading information technology 
to rural America is something Senator Lugar, I know, has a 
particular interest in. I have a very keen interest in it, and 
I have expressed to both Secretary Johanns, as well as Teresa 
Lassiter, the Director of FSA, that as we look at consolidating 
or eliminating FSA offices around the country, all of that is 
fine and good, but we cannot forget the fact that our farmers 
have got to have access to their Government and their U.S. 
Department of Agriculture. I hope that we are going to give 
some serious thought, as we go through this process, to make 
sure that those farmers who are moving ahead in this new world 
of information technology, and as they do not have access to an 
FSA office that may be close by, that we can give them access 
to USDA through technologies, so that they can sit in their 
offices or in their homes, instead of having to go to an FSA 
Office that may be further away than what they are used to. I 
think it is going to be a critically important decision and 
process that you will be involved in, so we look forward to 
engaging in this with you down the road.
    Ms. Strachan, you have been involved in congressional 
relations for a number of years. Are there lessons from your 
private sector experience that you think would be useful at 
USDA?
    Ms. T4Strachan. T1Mr. Chairman, I think I had some 
wonderful experiences in the private sector that I can bring to 
Department of Agriculture. I was fortunate to be able to 
participate in educational opportunities, helping staffers 
learn about agriculture outside of the Washington area, to see 
new technologies, and meet with researchers who are working on 
interesting projects that are bringing value to the American 
farmer. Those are the type of activities that I would like to 
continue at the Department, if confirmed.
    The Chairman. I believe it is important to have open lines 
of communication between Congress and USDA, and I think you 
have a unique ability to be able to do that based upon your 
previous employment and your contact with all of us up here on 
the Hill, who have known you for many years, and have had the 
opportunity to work with you for years. How do you plan to move 
forward and facilitate that communication, with USDA, and the 
Hill?
    Ms. Strachan. I'm very fortunate, if confirmed, to work 
with Secretary Johanns and Deputy Secretary Conner, who also 
share the same view about keeping the lines of communication 
open and making sure that the Hill is briefed, as your 
constituents need to know. The fact that there are a lot of top 
drawer tickets coming up regarding agriculture, it is very 
important that we set up a process that you are regularly 
briefed on any upcoming issue. If confirmed, I would make sure 
a process was definitely in place.
    The Chairman. Good. Let me just say I am in my 12th year on 
the Hill now, and this Secretary of Agriculture has been the 
most open and the one that has been in communication with the 
Hill more so than any other Secretary of Agriculture during my 
12 years. We work very closely together because we do have that 
open dialog, and we look forward to working with you to 
continue that.
    Senator Lugar?
    Senator Lugar. Thank you very much, Mr. Chairman. I join 
you in welcoming our nominees, and congratulating the President 
on the four excellent choices. I look forward to supporting 
each one of you, and encourage our colleagues to do that.
    Let me just say, Ms. Strachan, I join Senator Harkin and 
Senator Chambliss in congratulating you in having Howard Baker 
as a mentor. He is a very good friend of all of ours, but even 
more importantly, the epitome of good relations between the 
Congress, the administration and the public, and, obviously, 
your career has manifested that in many ways.
    Ms. Strachan. Thank you, Senator.
    Senator Lugar. I would like to have you here and look 
forward to working with you.
    Ms. Strachan. Thank you, Senator.
    Senator Lugar. Mr. Rutherford, I was struck by the 
conclusion of your statement as one of the things that I think 
is especially important. When you point out, you say, last bio-
energy is a small but significant overlap between one of the 
administration's priorities and what I have been working on for 
the past year. And you point out that in Maryland you have been 
working to get legislation to require the use of bio-diesel in 
the State's diesel fleet, and put up an ethanol filling 
station.
    I do not know what the constraints on you will be in USDA, 
but I hope that they will not be severe as you perceive, think 
through in a much larger context. That is, all the vehicle in 
one form or another come under the purview of USDA, that they 
would have a bio-diesel capability or a flexible fuel 
capability, or that they might even be hybrid in terms of their 
capabilities energy-wise. It seems to me that at this point, as 
the President has stated, we are addicted to oil, that we have 
to, in the course of a fairly short period of time, diminish by 
75 percent our dependence upon Middle Eastern oil for a variety 
of reasons. That really requires an extraordinary shift in the 
whole transportation system of our country, and the leadership 
that can be offered by departments such as USDA, which have, as 
Senator Chambliss has pointed out, a strong interest really in 
people that we are serving, farmers who are now growing for 
energy, as well as growing for food, and the symbiotic 
relationship between the administration of the Department and 
that emphasis is just absolutely critical.
    I have no idea how far and how rapidly you can proceed. I 
would hope that it would be a very strong process, because 
usually testimony on these things points out that Rome was not 
built in a day, that these things take time, that in the 
fullness of time, maybe three administrations down the trail, 
certain things will happen, when really the Congress hopes that 
things will happen in 2006. The strength of our country will be 
manifested to others really in this timeframe, and without 
getting into the problems of foreign policy that should verge 
really upon this situation. The fact is that we are not as 
credible as we need to be as a Nation. In terms of moving 
toward non-energy independence, but simply an ability to hold 
our own against other powers that do not wish us well.
    So I am most hopeful, and I will be eager to hear of your 
progress, and look forward, as I know others will on this 
Committee, as supporting that.
    In the same framework, Dr. Buchanan, your research efforts 
have covered a myriad of fields. But I would hope that the 
specific emphasis USDA can place upon research and energy now 
would really come to the fore. The President, when he has 
visited with Senators, has pointed out that cellulosic ethanol 
is very, important to him, but then he qualifies this by saying 
within a 6-year period of time or some other context. As you 
may know, there is a potential plan that could be available in 
Idaho this year. It is a question of moving ahead to the 
Treasury guarantees and that type of thing, which you cannot 
handle in a research position in USDA. But with your expertise, 
this certainly can be a strong voice as to what this means.
    Now, the President is talking about cellulosic ethanol 
because various types of biomass occur in all of the States of 
the Union. Some critics of corn-based ethanol point out that 
the Midwest is not the entirety of U.S. agriculture, and as 
enthusiastic as many of us are about building ethanol plants 
using corn or bio-diesel plants that may use soybeans, the fact 
is, as the President pointed out in a meeting we had, in 
Arizona and New Mexico, and what-have-you, may be out of luck 
with regard to any of the above. But nevertheless, in every 
State there are biomass sources, and the question will be how 
to organize this material, how to transport and how to provide 
laboratories that convert it into something that is a renewable 
fuel every year in the same way that agriculture provides 
abundance in our food supply. Once again, people say, well, in 
the by-and-by, this may all work out. But we are in a critical 
point in this world, in which it has to happen very, quickly, 
and there has to be credibility.
    And so, I am excited by your coming to the Department 
because you really bring an understanding of agriculture and 
the world and the ways we make money in agriculture. Your own 
farming experience manifests that. I saw your experience as a 
tree farmer, and I identify with that. Your harvest of trees 
and your pointing out how $28,000 was yours and so forth, that 
is very valid, taking a look at that. But I am really most 
hopeful that you can outline for the Committee, as you come 
back and forth to visit with us, or even when you don't visit 
with us, to send us reports, letters and what-have-you that 
offer encouragement as to what is happening in energy research.
    Do you have any broad comment about that as you undertake 
these responsibilities?
    Mr. Buchanan. Yes, sir, I certainly do, and I appreciate 
your comments, Senator Lugar, because I am one of those that is 
firmly convinced that we need to be looking at every possible 
aspect of energy, and certainly, I am convinced--and I think I 
am right--that one of our real opportunities for solution is 
what we can grow utilizing the energy from the sun. And by 
definition, that which we can get from energy from the sun is 
agriculture. And there are many, many different opportunities, 
and it is not just one part of the U.S. that is blessed, but 
the whole country has opportunities.
    I took a group of farmers and Development Authority 
officials out to the National Renewable Energy Laboratory 
(NREL) out in Golden, Colorado this past summer to study and 
look at the energy research going on at NREL. Then we visited 
some facilities in Nebraska and Iowa and spent some time at 
Iowa State. Then we visited in southern Minnesota and on over 
into South Dakota, and clearly, they have fantastic 
opportunities for corn, as we know, but also wind. In much of 
the other parts of the country, we don't have much wind. Well, 
you don't have much opportunity for biomass in some parts of 
the Southwest, but you certainly have a lot of sunshine, and I 
think we must consider all of the opportunities we have, and 
get on with the business. Clearly, developing energy is one of 
the areas that, as I mentioned, in response to Senator 
Chambliss's question, I think is a real challenge.
    And as I also pointed out, things like growing your own 
nitrogen is one of those you don't think of as being energy-
related, but yet, most of our nitrogen comes from petroleum 
products, from natural gas. So if you can grow that and combine 
it into a production systems without having to make that 
purchase, then that is just as good as filling up your car with 
ethanol.
    So, Senator, I think you're exactly right, and I really 
look forward to work in this area because I think it's one of 
the great opportunities we have.
    Senator Lugar. Let me just ask one more question. It is a 
settled aspect of this, but sometimes, as people in my home 
State of Indiana take a look at the fact that 14 percent of our 
corn now is going into ethanol, and that may be 20 percent by 
the end of this year, and that surprises most corn farmers that 
things have moved along that rapidly. It makes them happy 
because the price of corn is a little stronger, given the large 
surpluses in the world, and that will probably continue to be 
the case.
    But let us take the opposite case that people who say, 
after all, God meant this corn to be used for feed for either 
human beings or for livestock, and not for energy, and we are 
going to run out of it. Or they will make an argument that we 
are going to run out of farmland if we continue to use that 
many acres for biomass or for soybeans, and for soy-diesel and 
what-have-you. One of the arguments, of course, and your 
lifetime has encompassed, as mine has--I have seen it on our 
own farm--the yield in corn go from 40 to 50 bushels to the 
acre, to 140, to 150, just in the course of that period of 
time. And therefore, Americans doing research have done 
remarkable things in tripling our yields, more than that on 
some occasion. And working through Dr. Borlog and others in the 
Green Revolution around the world.
    So can you think of at least an agenda likewise in 
research, leaving aside these exciting new vistas in energy, 
likewise address the problem of yields, how we are going to in 
fact improve corn and soybeans, or wheat, you know, common 
objectives, but ones in which some people say, well, we have 
almost reached the limits of this. Can you assure us the best 
is still to come?
    Mr. Buchanan. I am firmly convinced the best is still yet 
to come. And of course there's other things, and you know, in 
the President's address he mentioned switchgrass, which gets 
back to cellulosic ethanol. I think that this has clearly got 
to be one of the high priorities. I know that NREL is really 
working in this area, but a lot of other laboratories are 
working too because we really need the enzymes that really make 
cellulosic ethanol a reality.
    While we're talking about agricultural opportunities, we 
need to be thinking about all of the other products that we 
could use, for example things from cities. A lot of people 
don't think about cities as having a lot of waste material, but 
there's literally thousands and thousands of tons of biomass 
that could be converted into useful energy if we had the 
technology to do it. So that's another area that I think we're 
going to see some research emphasis on in the future.
    Senator Lugar. We look for your leadership to keep us 
excited.
    Mr. Kesselman, just one final question that I have. You 
have made an excellent and important statement about racial 
discrimination and your own convictions, with which this 
committee agrees, and it is important, because over the years 
we have had a number of hearings in our committee that have 
been disturbing in terms of testimony of those who felt 
discrimination had occurred in agricultural programs. It is not 
new, but it is not entirely resolved. Your ability to work 
constructively, this is very important.
    I am just curious, as you survey that job, as you have 
taken a look at it, what kind of lawsuits occur in USDA? What 
is likely to be your portfolio of activity as you look at it 
presently?
    Mr. Kesselman. Senator, thank you. USDA is an incredibly 
large and diverse organization. The types of conflicts that 
arise are as diverse as the mission areas of the Department 
itself. The Department has been litigating these program class 
actions involving allegations of discrimination in the 
administration of credit programs. At the same time, lawyers in 
the Office of the General Counsel are also busy enforcing trade 
practices laws with respect to agriculture. They are also 
representing the Forest Service to ensure compliance with 
environmental statutes. They are also helping to make sure that 
we have the legal authorities that this country is going to 
need in the event that the avian flu comes over here.
    It is incumbent upon the next General Counsel to be able to 
work with the attorneys in the Office of the General Counsel on 
a wide variety of subject areas. I is also important to have a 
cooperative working relationship, not just with the various 
policy officials who work at the Department of Agriculture, but 
also with officials across the Federal Government. I think that 
my OMB experience will be a real strength if I am confirmed, 
because I have worked with the Chief Counsel of the Food and 
Drug Administration and the General Counsel of HHS. I've worked 
with the attorneys at the EPA, and at the State Department. I 
think that this breadth of experience could be of benefit to 
the Department of Agriculture if you see fit to place me in 
this important position.
    Senator Lugar. That experience will be important, and I 
appreciate your outlining that.
    Mr. Rutherford, I am just intrigued. Are you going to be 
able to set up USDA ethanol gas stations in each State?
    [Laughter.]
    Mr. Rutherford. Well, I don't know until and unless I'm 
confirmed. I'm not sure if we would be able to do that or not, 
but I would like to explore it and would be willing to sit down 
and talk to you about that.
    Senator Lugar. You have had the experience in Maryland.
    Mr. Rutherford. Yes.
    Senator Lugar. And so I emboldened to ask whether now that 
your purview may be national, 50 States, that might be 
replicated, and I hope that will be the case, because once 
again, the leadership of showing how to do it is tremendously 
encouraging and important.
    Mr. Rutherford. You are correct that the leadership from 
the President to Secretary Johanns have made bio-energy and 
bio-based products a priority, and if confirmed, I would look 
to assist in meeting that mission.
    Senator Lugar. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. [Presiding] Thank you, Senator.
    Let me just echo Senator Lugar's comments regarding to 
alternative fuels. He and I share a common interest relative to 
the development of this issue, and we talked just last week 
again about it, and we are going to explore some ideas. He 
mentioned something that, Mr. Rutherford, and I know some of 
this is light comment, but Senator Lugar and I have a very 
strong belief in the fact that we can produce all the 
alternative energy in the world, but if we cannot get it in the 
hands of the consumers, then it does us no good. We are going 
to be moving toward the writing of the farm bill next year, and 
there are a number of members of this Committee who have an 
interest in alternative fuels, and we are going to continue to 
develop that. I want to also see if we can have a mechanism for 
the delivery of those alternative fuels, because I firmly 
believe that Americans, being what they are, if they pull up to 
a service station and gasoline is $2.50 and ethanol is $1.10, I 
think we know what they are going to do, and particularly if 
that fuel that goes into their cars gives them the same power 
as gasoline will, and instead of going 10 miles per gallon of 
gasoline, all of a sudden we go 200 miles per gallon on 
gasoline, so it is a critically important issue.
    Senator Lugar, Dr. Buchanan, is talking a little bit about 
research in this area. And we do not grow the abundance of corn 
that you do in the Midwest, but we are believers in alternative 
fuels, and we were doing something under his leadership at the 
University of Georgia, while he was Dean there from a research 
standpoint of taking a crop that we can grow a lot of, which is 
pine trees, and using it in the manufacture of energy. We are 
even now taking what used to be the waste, the tops and the 
limbs that the harvesters leave in the forest, and we are 
gathering those up now and finding ways of developing those 
products into energy. So there is a lot of research that needs 
to be done, but there are a lot of great things that we can do, 
and I look forward, obviously, to continuing to work with you 
in that respect.
    Ms. Strachan, I cannot let you leave here, since you have 
mentioned Senator Dirksen and Senator Baker, who is a good 
friend of both Senator Lugar and mine. The Senate is such a 
great place from a historical standpoint. We are graced here 
today with portraits of former members of the Senate Ag 
Committee, including Senator Lugar up there, including one of 
my mentors and dear friend, Senator Herman Talmadge up here, 
but the one thing that we do is we keep a record of all the 
desks that we utilize on the floor of the Senate as well as in 
our personal offices. I get to sit behind a desk in my personal 
office every day that once was the desk of Senator Everett 
Dirksen, and it is pretty neat stuff. He was not just a great 
asset to the Senate, he was a great America.
    With that, I will remind all members of the committee that 
they must get their questions in to each of you if they have 
any additional questions in writing by 5 o'clock today. I would 
ask that you please get those answers and responses to those 
questions back immediately, as we want to bring these 
nominations to the floor, hopefully, this week.
    With that, we are going to stand adjourned.
    [Whereupon, at 11:09 a.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             March 14, 2006



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0236.001

[GRAPHIC] [TIFF OMITTED] T0236.002

[GRAPHIC] [TIFF OMITTED] T0236.003

[GRAPHIC] [TIFF OMITTED] T0236.004

[GRAPHIC] [TIFF OMITTED] T0236.005

[GRAPHIC] [TIFF OMITTED] T0236.006

[GRAPHIC] [TIFF OMITTED] T0236.007

[GRAPHIC] [TIFF OMITTED] T0236.008

[GRAPHIC] [TIFF OMITTED] T0236.009

[GRAPHIC] [TIFF OMITTED] T0236.010

[GRAPHIC] [TIFF OMITTED] T0236.011

[GRAPHIC] [TIFF OMITTED] T0236.012

[GRAPHIC] [TIFF OMITTED] T0236.013

[GRAPHIC] [TIFF OMITTED] T0236.014

[GRAPHIC] [TIFF OMITTED] T0236.015

[GRAPHIC] [TIFF OMITTED] T0236.016

[GRAPHIC] [TIFF OMITTED] T0236.017

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 14, 2006



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0236.018

[GRAPHIC] [TIFF OMITTED] T0236.019

[GRAPHIC] [TIFF OMITTED] T0236.020

[GRAPHIC] [TIFF OMITTED] T0236.021

[GRAPHIC] [TIFF OMITTED] T0236.022

[GRAPHIC] [TIFF OMITTED] T0236.023

[GRAPHIC] [TIFF OMITTED] T0236.024

[GRAPHIC] [TIFF OMITTED] T0236.025

[GRAPHIC] [TIFF OMITTED] T0236.026

[GRAPHIC] [TIFF OMITTED] T0236.027

[GRAPHIC] [TIFF OMITTED] T0236.028

[GRAPHIC] [TIFF OMITTED] T0236.029

[GRAPHIC] [TIFF OMITTED] T0236.030

[GRAPHIC] [TIFF OMITTED] T0236.031

[GRAPHIC] [TIFF OMITTED] T0236.032

[GRAPHIC] [TIFF OMITTED] T0236.033

[GRAPHIC] [TIFF OMITTED] T0236.034

[GRAPHIC] [TIFF OMITTED] T0236.035

[GRAPHIC] [TIFF OMITTED] T0236.036

[GRAPHIC] [TIFF OMITTED] T0236.037

[GRAPHIC] [TIFF OMITTED] T0236.038

[GRAPHIC] [TIFF OMITTED] T0236.039

[GRAPHIC] [TIFF OMITTED] T0236.040

[GRAPHIC] [TIFF OMITTED] T0236.041

[GRAPHIC] [TIFF OMITTED] T0236.042

[GRAPHIC] [TIFF OMITTED] T0236.043

[GRAPHIC] [TIFF OMITTED] T0236.044

[GRAPHIC] [TIFF OMITTED] T0236.045

[GRAPHIC] [TIFF OMITTED] T0236.046

[GRAPHIC] [TIFF OMITTED] T0236.047

[GRAPHIC] [TIFF OMITTED] T0236.048

[GRAPHIC] [TIFF OMITTED] T0236.049

[GRAPHIC] [TIFF OMITTED] T0236.050

[GRAPHIC] [TIFF OMITTED] T0236.051

[GRAPHIC] [TIFF OMITTED] T0236.052

[GRAPHIC] [TIFF OMITTED] T0236.053

[GRAPHIC] [TIFF OMITTED] T0236.054

[GRAPHIC] [TIFF OMITTED] T0236.055

[GRAPHIC] [TIFF OMITTED] T0236.056

[GRAPHIC] [TIFF OMITTED] T0236.057

[GRAPHIC] [TIFF OMITTED] T0236.058

[GRAPHIC] [TIFF OMITTED] T0236.059

[GRAPHIC] [TIFF OMITTED] T0236.060

[GRAPHIC] [TIFF OMITTED] T0236.061

[GRAPHIC] [TIFF OMITTED] T0236.062

[GRAPHIC] [TIFF OMITTED] T0236.063

[GRAPHIC] [TIFF OMITTED] T0236.064

[GRAPHIC] [TIFF OMITTED] T0236.065

[GRAPHIC] [TIFF OMITTED] T0236.066

[GRAPHIC] [TIFF OMITTED] T0236.067

[GRAPHIC] [TIFF OMITTED] T0236.068

[GRAPHIC] [TIFF OMITTED] T0236.069

[GRAPHIC] [TIFF OMITTED] T0236.070

[GRAPHIC] [TIFF OMITTED] T0236.071

[GRAPHIC] [TIFF OMITTED] T0236.072

[GRAPHIC] [TIFF OMITTED] T0236.073

[GRAPHIC] [TIFF OMITTED] T0236.074

[GRAPHIC] [TIFF OMITTED] T0236.075

[GRAPHIC] [TIFF OMITTED] T0236.076

[GRAPHIC] [TIFF OMITTED] T0236.077

[GRAPHIC] [TIFF OMITTED] T0236.078

[GRAPHIC] [TIFF OMITTED] T0236.079

[GRAPHIC] [TIFF OMITTED] T0236.080

[GRAPHIC] [TIFF OMITTED] T0236.081

[GRAPHIC] [TIFF OMITTED] T0236.082

[GRAPHIC] [TIFF OMITTED] T0236.083

[GRAPHIC] [TIFF OMITTED] T0236.084

[GRAPHIC] [TIFF OMITTED] T0236.085

[GRAPHIC] [TIFF OMITTED] T0236.086

[GRAPHIC] [TIFF OMITTED] T0236.087

[GRAPHIC] [TIFF OMITTED] T0236.088

[GRAPHIC] [TIFF OMITTED] T0236.089

[GRAPHIC] [TIFF OMITTED] T0236.090

[GRAPHIC] [TIFF OMITTED] T0236.091

[GRAPHIC] [TIFF OMITTED] T0236.092

[GRAPHIC] [TIFF OMITTED] T0236.093

[GRAPHIC] [TIFF OMITTED] T0236.094

[GRAPHIC] [TIFF OMITTED] T0236.095

[GRAPHIC] [TIFF OMITTED] T0236.096

[GRAPHIC] [TIFF OMITTED] T0236.097

[GRAPHIC] [TIFF OMITTED] T0236.098

[GRAPHIC] [TIFF OMITTED] T0236.099

[GRAPHIC] [TIFF OMITTED] T0236.100

[GRAPHIC] [TIFF OMITTED] T0236.101

[GRAPHIC] [TIFF OMITTED] T0236.102

[GRAPHIC] [TIFF OMITTED] T0236.103

[GRAPHIC] [TIFF OMITTED] T0236.104

[GRAPHIC] [TIFF OMITTED] T0236.105

[GRAPHIC] [TIFF OMITTED] T0236.106

[GRAPHIC] [TIFF OMITTED] T0236.107

[GRAPHIC] [TIFF OMITTED] T0236.108

[GRAPHIC] [TIFF OMITTED] T0236.109

[GRAPHIC] [TIFF OMITTED] T0236.110

[GRAPHIC] [TIFF OMITTED] T0236.111

[GRAPHIC] [TIFF OMITTED] T0236.112

[GRAPHIC] [TIFF OMITTED] T0236.113

[GRAPHIC] [TIFF OMITTED] T0236.114

[GRAPHIC] [TIFF OMITTED] T0236.115

[GRAPHIC] [TIFF OMITTED] T0236.116

[GRAPHIC] [TIFF OMITTED] T0236.117

[GRAPHIC] [TIFF OMITTED] T0236.118

[GRAPHIC] [TIFF OMITTED] T0236.119

[GRAPHIC] [TIFF OMITTED] T0236.120

[GRAPHIC] [TIFF OMITTED] T0236.121

[GRAPHIC] [TIFF OMITTED] T0236.122

[GRAPHIC] [TIFF OMITTED] T0236.123

[GRAPHIC] [TIFF OMITTED] T0236.124

[GRAPHIC] [TIFF OMITTED] T0236.125

[GRAPHIC] [TIFF OMITTED] T0236.126

[GRAPHIC] [TIFF OMITTED] T0236.127

[GRAPHIC] [TIFF OMITTED] T0236.128

[GRAPHIC] [TIFF OMITTED] T0236.129

[GRAPHIC] [TIFF OMITTED] T0236.130

[GRAPHIC] [TIFF OMITTED] T0236.131

[GRAPHIC] [TIFF OMITTED] T0236.132

[GRAPHIC] [TIFF OMITTED] T0236.133

[GRAPHIC] [TIFF OMITTED] T0236.134

[GRAPHIC] [TIFF OMITTED] T0236.135

[GRAPHIC] [TIFF OMITTED] T0236.136

[GRAPHIC] [TIFF OMITTED] T0236.137

[GRAPHIC] [TIFF OMITTED] T0236.138

[GRAPHIC] [TIFF OMITTED] T0236.139

[GRAPHIC] [TIFF OMITTED] T0236.140

[GRAPHIC] [TIFF OMITTED] T0236.141

[GRAPHIC] [TIFF OMITTED] T0236.142

[GRAPHIC] [TIFF OMITTED] T0236.143

[GRAPHIC] [TIFF OMITTED] T0236.144

[GRAPHIC] [TIFF OMITTED] T0236.145

[GRAPHIC] [TIFF OMITTED] T0236.146

[GRAPHIC] [TIFF OMITTED] T0236.147

[GRAPHIC] [TIFF OMITTED] T0236.148

[GRAPHIC] [TIFF OMITTED] T0236.149

[GRAPHIC] [TIFF OMITTED] T0236.150

[GRAPHIC] [TIFF OMITTED] T0236.151

[GRAPHIC] [TIFF OMITTED] T0236.152

[GRAPHIC] [TIFF OMITTED] T0236.153

[GRAPHIC] [TIFF OMITTED] T0236.154

[GRAPHIC] [TIFF OMITTED] T0236.155

[GRAPHIC] [TIFF OMITTED] T0236.156

[GRAPHIC] [TIFF OMITTED] T0236.157

[GRAPHIC] [TIFF OMITTED] T0236.158

[GRAPHIC] [TIFF OMITTED] T0236.159

[GRAPHIC] [TIFF OMITTED] T0236.160

[GRAPHIC] [TIFF OMITTED] T0236.161

[GRAPHIC] [TIFF OMITTED] T0236.162

[GRAPHIC] [TIFF OMITTED] T0236.163

[GRAPHIC] [TIFF OMITTED] T0236.164

[GRAPHIC] [TIFF OMITTED] T0236.165

[GRAPHIC] [TIFF OMITTED] T0236.166

[GRAPHIC] [TIFF OMITTED] T0236.167

[GRAPHIC] [TIFF OMITTED] T0236.168

[GRAPHIC] [TIFF OMITTED] T0236.169

[GRAPHIC] [TIFF OMITTED] T0236.170

[GRAPHIC] [TIFF OMITTED] T0236.171

[GRAPHIC] [TIFF OMITTED] T0236.172

[GRAPHIC] [TIFF OMITTED] T0236.173

[GRAPHIC] [TIFF OMITTED] T0236.174

[GRAPHIC] [TIFF OMITTED] T0236.175

[GRAPHIC] [TIFF OMITTED] T0236.176

[GRAPHIC] [TIFF OMITTED] T0236.177

[GRAPHIC] [TIFF OMITTED] T0236.178

[GRAPHIC] [TIFF OMITTED] T0236.179

[GRAPHIC] [TIFF OMITTED] T0236.180

[GRAPHIC] [TIFF OMITTED] T0236.181

[GRAPHIC] [TIFF OMITTED] T0236.182

[GRAPHIC] [TIFF OMITTED] T0236.183

[GRAPHIC] [TIFF OMITTED] T0236.184

[GRAPHIC] [TIFF OMITTED] T0236.185

[GRAPHIC] [TIFF OMITTED] T0236.186

[GRAPHIC] [TIFF OMITTED] T0236.187

[GRAPHIC] [TIFF OMITTED] T0236.188

[GRAPHIC] [TIFF OMITTED] T0236.189

[GRAPHIC] [TIFF OMITTED] T0236.190

[GRAPHIC] [TIFF OMITTED] T0236.191

      
=======================================================================


                         QUESTIONS AND ANSWERS

                             March 14, 2006



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0236.192

[GRAPHIC] [TIFF OMITTED] T0236.193

[GRAPHIC] [TIFF OMITTED] T0236.194

[GRAPHIC] [TIFF OMITTED] T0236.195

[GRAPHIC] [TIFF OMITTED] T0236.196

[GRAPHIC] [TIFF OMITTED] T0236.197

[GRAPHIC] [TIFF OMITTED] T0236.198

[GRAPHIC] [TIFF OMITTED] T0236.199

[GRAPHIC] [TIFF OMITTED] T0236.200

[GRAPHIC] [TIFF OMITTED] T0236.201

[GRAPHIC] [TIFF OMITTED] T0236.202

[GRAPHIC] [TIFF OMITTED] T0236.203

[GRAPHIC] [TIFF OMITTED] T0236.204

[GRAPHIC] [TIFF OMITTED] T0236.205

[GRAPHIC] [TIFF OMITTED] T0236.206

[GRAPHIC] [TIFF OMITTED] T0236.207

[GRAPHIC] [TIFF OMITTED] T0236.208

[GRAPHIC] [TIFF OMITTED] T0236.209

[GRAPHIC] [TIFF OMITTED] T0236.210

[GRAPHIC] [TIFF OMITTED] T0236.211

[GRAPHIC] [TIFF OMITTED] T0236.212

[GRAPHIC] [TIFF OMITTED] T0236.213

                                 <all>

</pre></body></html>
